      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General


                                                                      Washington, D.C. 20201




September 14, 2010

TO:           Donald M. Berwick, M.D.
              Administrator
              Centers for Medicare & Medicaid Services

              /Joe J. Green/ for
FROM:         George M. Reeb
              Acting Deputy Inspector General for Audit Services


SUBJECT:      Review of New Jersey’s Medicaid School-Based Health Claims Submitted by
              Public Consulting Group, Inc. (A-02-07-01052)


Attached, for your information, is an advance copy of our final report on New Jersey’s Medicaid
school-based health claims submitted by Public Consulting Group, Inc. We will issue this report
to the New Jersey Department of Human Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov
or James P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620
or through email at James.Edert@oig.hhs.gov. Please refer to report number A-02-07-01052.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
                                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278
September 15, 2010

Report Number: A-02-07-01052

Ms. Jennifer Velez, Esq.
Commissioner
New Jersey Department of Human Services
222 South Warren Street
P.O. Box 700
Trenton, NJ 08625-0700

Dear Ms. Velez:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of New Jersey’s Medicaid School-Based Health
Claims Submitted by Public Consulting Group, Inc. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Richard Schlitt, Audit Manager, at (212) 264-4817 or through email at
Richard.Schlitt@oig.hhs.gov. Please refer to report number A-02-07-01052 in all
correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Jennifer Velez, Esq.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF NEW JERSEY’S MEDICAID
 SCHOOL-BASED HEALTH CLAIMS
         SUBMITTED BY
 PUBLIC CONSULTING GROUP, INC.




                        Daniel R. Levinson
                         Inspector General

                         September 2010
                          A-02-07-01052
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In New Jersey, the Department of Human
Services is responsible for operating the Medicaid program.

Section 411(k)(13) of the Medicare Catastrophic Coverage Act of 1988 (P. L. No. 100-360)
amended section 1903(c) of the Act to permit Medicaid payment for medical services provided
to children under the Individuals with Disabilities Education Act through a child’s individualized
education plan. Pursuant to Federal and State requirements, such services require a referral or
prescription from a properly credentialed physician or licensed practitioner. These services must
be provided by an individual who meets Federal qualification requirements and be fully
documented. In addition, pursuant to New Jersey’s State Medicaid plan requirements, these
services must be documented in a treatment plan.

For the period April 6, 2005, through June 27, 2007, New Jersey received more than
$45.3 million in Federal Medicaid reimbursement for school-based health claims submitted by
its billing agent, Public Consulting Group, Inc. (PCG).

OBJECTIVE

Our objective was to determine whether New Jersey’s Medicaid school-based health claims
submitted by its billing agent, PCG, complied with Federal and State requirements.

SUMMARY OF FINDINGS

New Jersey’s claims for reimbursement of Medicaid school-based health services submitted by
PCG did not fully comply with Federal and State requirements. Of the 100 school-based health
claims in our sample, 64 claims complied with Federal and State requirements. However, the
remaining 36 did not.

Of the 36 noncompliant claims, 11 claims contained more than 1 deficiency:

   •   Sixteen claims lacked a referral or prescription.

   •   Sixteen claims did not meet Federal provider qualification requirements.

   •   Fourteen claims contained services that were not provided or supported.

   •   One claim contained services not documented in the child’s plan.

                                                 i
These deficiencies occurred because: (1) school-based health providers did not comply with
guidance related to Federal requirements and (2) New Jersey did not adequately monitor school-
based health claims for compliance with Federal and State requirements.

Based on our sample results, we estimate that New Jersey was improperly reimbursed
$5,613,885 in Federal Medicaid funds during our April 6, 2005, through June 27, 2007, audit
period.

RECOMMENDATIONS

We recommend that New Jersey:

   •   refund $5,613,885 to the Federal Government and

   •   consider the results of this review in its evaluation of our prior recommendations to
       ensure that its school-based health providers comply with Federal and State requirements.

NEW JERSEY COMMENTS

In its comments on our draft report, New Jersey disagreed with our recommended refund. In
addition, New Jersey questioned our sampling methodology and disagreed with what we
accepted as valid referrals. However, New Jersey described corrective actions that it has taken in
response to our second recommendation. New Jersey also provided additional documentation
for six claims we questioned in our draft report.

OFFICE OF INSPECTOR GENERAL RESPONSE

Our statistical sampling methodology used to determine the estimated overpayment was valid.
After reviewing the additional documentation provided by New Jersey, we determined that some
services for five claims complied with Federal and State requirements and revised our findings
and recommended refund accordingly.




                                                ii
                                                    TABLE OF CONTENTS
                                                                                                                                        Page

INTRODUCTION..................................................................................................................... 1

      BACKGROUND ................................................................................................................. 1
         Medicaid Program ........................................................................................................ 1
         Medicaid Coverage of School-Based Health Services ................................................. 1
         New Jersey’s Medicaid Program .................................................................................. 1
         Prior Office of Inspector General Audit Reports ......................................................... 3

      OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................... 3
         Objective....................................................................................................................... 3
         Scope ............................................................................................................................ 4
         Methodology................................................................................................................. 4

FINDINGS AND RECOMMENDATIONS ........................................................................... 5

      REFERRAL OR PRESCRIPTION REQUIREMENTS NOT MET ................................... 6

      FEDERAL PROVIDER REQUIREMENTS NOT MET .................................................... 6
         Speech Therapy Provider Requirements Not Met ........................................................ 6

      SERVICES NOT PROVIDED OR NOT SUPPORTED .................................................... 7

      CHILD’S PLAN NOT PROVIDED .................................................................................... 8

      CAUSES OF THE IMPROPER CLAIMS .......................................................................... 8
         Providers Did Not Comply With Federal Requirements .............................................. 8
         New Jersey Did Not Adequately Monitor School-Based Health Claims ..................... 8

      RECOMMENDATIONS ..................................................................................................... 9

      NEW JERSEY COMMENTS AND OFFICE OF INSPECTOR GENERAL
       RESPONSE ...................................................................................................................... 9
         Sampling Methodology ................................................................................................ 9
         Additional Documentation ......................................................................................... 10
         Referrals ..................................................................................................................... 10
         Attendance .................................................................................................................. 11
         Transportation............................................................................................................. 11




                                                                      iii
APPENDIXES

    A: SAMPLE DESIGN AND METHODOLOGY

    B: SAMPLE RESULTS AND ESTIMATES

    C: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED CLAIM

    D: NEW JERSEY COMMENTS




                               iv
                                        INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Medicaid Coverage of School-Based Health Services

Section 411(k)(13) of the Medicare Catastrophic Coverage Act of 1988 (P.L. No. 100-360)
amended section 1903(c) of the Act to permit Medicaid payment for medical services provided
to children under the Individuals with Disabilities Education Act (IDEA) (originally enacted as
P.L. No. 91-230 in 1970) through a child’s individualized education plan.

Federal and State rules require that school-based health services be (1) referred or prescribed by
a physician or another appropriate professional, (2) provided by an individual who meets Federal
qualification requirements, (3) fully documented, (4) actually furnished in order to be billed, and
(5) documented in the child’s plan.

In August 1997, CMS issued a guide entitled Medicaid and School Health: A Technical
Assistance Guide (technical guide). According to the technical guide, school-based health
services included in a child’s plan may be covered if all relevant statutory and regulatory
requirements are met. In addition, the technical guide provides that a State may cover services
included in a child’s plan as long as: (1) the services are listed in section 1905(a) of the Act and
are medically necessary; (2) all Federal and State regulations are followed, including those
specifying provider qualifications; and (3) the services are included in the State plan or available
under the Early and Periodic Screening, Diagnostic and Treatment Medicaid benefit. Covered
services may include, but are not limited to, physical therapy, occupational therapy, speech
pathology/therapy services, psychological counseling, nursing, and transportation services.

New Jersey’s Medicaid Program

In New Jersey, the Department of Human Services is responsible for operating the Medicaid
program. Within the New Jersey Department of Human Services, the Division of Medical
Assistance and Health Services administers the Medicaid program. The administrative
responsibility for operating New Jersey’s school-based health services program, known as the
Special Education Medicaid Initiative (SEMI), is shared among three State departments: Human
Services, Education, and Treasury. The State also contracted with a billing agent, Public




                                                 1
Consulting Group, Inc. (PCG), to help administer its Medicaid school-based health services
program. The responsibilities of each are as follows:

    1. The Department of Human Services oversees school-based health provider enrollment,
       provides technical assistance to school-based health providers, and processes providers’
       claims through New Jersey’s Medicaid Management Information System fiscal
       intermediary.

    2. The Department of Education certifies school-based health providers and provides policy
       guidance.

    3. The Department of Treasury serves as the contract manager for the SEMI billing agent.

    4. The billing agent is responsible for processing billing agreements and pupil registration
       information from school-based health providers providing technical assistance (including
       monitoring) on school-based health program issues, and conducting Medicaid eligibility
       verification for registered pupils. PCG was the contracted billing agent for New Jersey
       during our audit period. 1

The primary State guidance for administering and operating the school-based health program is
the SEMI Provider Handbook (State handbook). New Jersey and the billing agent developed the
handbook using both education and Medicaid requirements. The State handbook is issued to all
school-based health providers and contains detailed instructions on their responsibilities under
the school-based health program. The State handbook developed with PCG incorporated
recommendations and criteria from a prior Office of Inspector General audit report
(A-02-03-01003) that were not included in the State handbook developed with the previous
billing agent.

Pursuant to New Jersey’s Medicaid State plan, the school-based health program comprises
rehabilitative services, 2 evaluation services, 3 and transportation services. 4 School-based health

1
  PCG has overseen the SEMI program since January 2005 under a contingency-fee based arrangement. Although
PCG is not paid directly with Federal Medicaid funds, it is paid a percentage of the Federal Medicaid
reimbursements made for New Jersey’s SEMI program. We selected this program for review as part of a nationwide
contingency fee review.
2
 Often referred to as related school health services, rehabilitative services include occupational, physical, and
speech-language therapies; audiology services; psychological counseling and psychotherapy; and nursing.
3
 Evaluation services identify the need for school-based health services and prescribe the range and frequency of
services that the student requires. Evaluation services may include reevaluation or review of the current school-
based health services specified in the child’s plan.
4
  Transportation services are allowable when provided on the same day as a related service and when transportation
is included in the child’s plan. Pursuant to a May 21, 1999, letter from the Director of CMS’s Center for Medicaid
and State Operations to all State Medicaid directors, only specialized transportation can be billed to Medicaid.
According to CMS, “specialized transportation” means that a child requires transportation in a vehicle adapted to
serve the needs of the disabled, including a specially adapted school bus.



                                                           2
providers submit claims information to PCG through EasyTRAC, an online documentation
system that provides access to student information. (EasyTRAC can store information, such as
provider qualifications, child’s plan dates, and parental consent dates, to support school-based
health claims.) PCG then prepares claims based on the information received through
EasyTRAC. A school-based claim consists of a bill for related school-based health services,
evaluation services, or transportation services.

The Federal Government’s share of costs for school-based health claims is known as the Federal
medical assistance percentage (FMAP). From April 6, 2005, through June 27, 2007, the FMAP
was 50 percent in New Jersey. For this period, New Jersey received more than $45.3 million of
Federal Medicaid reimbursement for 157,114 claims.

Prior Office of Inspector General Audit Reports

On May 19, 2006, the Office of Inspector General issued a report (A-02-03-01003) on New
Jersey’s SEMI program for the period July 1, 1998, through June 30, 2001. The objective of the
audit was to determine whether Federal Medicaid payments for school-based health services
claimed by school-based health providers in New Jersey were in compliance with Federal and
State requirements. Among other recommendations, the report recommended that New Jersey
refund $51,262,909 to the Federal Government and work with CMS to resolve $1,046,786 in set
aside claims. 5

On February 8, 2008, the Office of Inspector General issued a report (A-02-04-01017) on the
rates used by New Jersey for claiming Federal Medicaid reimbursement for the SEMI and
Medicaid Administrative Claiming programs. The objective of the audit was to determine
whether the rates used by New Jersey were reasonable and complied with Federal requirements
and the Medicaid State plan. The report recommended that New Jersey work with CMS to
determine overpayment amounts for the period July 1, 1998, through June 30, 2001, and ensure
that rates used to claim Federal Medicaid reimbursement for school-based health services are
properly developed and documented.

On April, 23, 2010, the Office of Inspector General issued a report (A-02-07-01051) to New
Jersey regarding Medicaid school-based health claims submitted by its previous billing agent,
Maximus, Inc., for the period July 27, 2003, through October 4, 2006. The report recommended
that New Jersey provide proper and timely guidance on Federal Medicaid criteria to its school-
based health providers and to improve its monitoring of school-based health providers’ claims to
ensure compliance with Federal and State requirements.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether New Jersey’s Medicaid school-based health claims
submitted by its billing agent, PCG, complied with Federal and State requirements.


5
    CMS sustained the recommendations with minor adjustments.


                                                       3
Scope

Our review covered 157,114 claims paid totaling $90,731,406 ($45,365,703 Federal share) for
the period April 6, 2005, through June 27, 2007. During our audit, we did not review the overall
internal control structure of PCG, New Jersey, or the Medicaid program. Rather, we limited our
internal control review to those controls that were significant to the objective of our audit.

We conducted fieldwork at the Department of Human Service’s offices in Mercerville and
Trenton, New Jersey, as well as at 45 selected schools throughout the State.

Methodology

To accomplish our objective, we:

       •   reviewed applicable Federal and State laws, regulations, and guidelines;

       •   held discussions with New Jersey and billing agent officials to gain an understanding of
           New Jersey’s school-based health services program;

       •   obtained an understanding of computer edits and administrative controls regarding
           claiming Medicaid reimbursement for school-based health services;

       •   obtained a computer-generated file identifying all Medicaid school-based health claims
           submitted by New Jersey for the period July 27, 2003, through June 27, 2007;

       •   separated the file into two segments based on billing agent: claims submitted by
           Maximus Inc., 6 and claims submitted by PCG, and the PCG sampling frame consisted of
           157,114 student-months (all services provided to an individual student for a month during
           our audit period) with a total Medicaid paid amount of $90,731,406 ($45,365,703 Federal
           share);

       •   used stratified random sampling techniques to select a sample of 100 claims from the
           sampling frame of 157,114 claims; 7

       •   visited the school associated with each sample claim to review documentation supporting
           the claim; 8




6
 We are conducting a separate review (A-02-07-01051) of claims submitted by New Jersey for the period July 27,
2003, through October 4, 2006, when Maximus, Inc., was the State’s school-based health services billing agent.
7
 The 100 sample claims included 149 services: 47 for evaluation services, 43 for speech services, 19 for
occupational therapy services, 14 for psychological counseling services, 12 for physical therapy services, 9 for
nursing services, and 5 for transportation services.
8
    If documentation was not readily available, we accepted faxed copies at later dates.


                                                            4
      •    determined if the service provider or speech pathologist associated with the sample claim
           was certified by the American Speech-Language-Hearing Association (ASHA) and/or
           licensed by the New Jersey Division of Consumer Affairs, the State licensing agency; and

      •    estimated the dollar impact of the improper Federal reimbursement claimed in the total
           population of 157,114 school-based claims.

Appendix A contains the details of our sample design and methodology. Appendix B contains
our sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                FINDINGS AND RECOMMENDATIONS

New Jersey’s claims for reimbursement of Medicaid school-based health services submitted by
PCG did not fully comply with Federal and State requirements. Of the 100 school-based health
claims in our sample, 64 claims complied with Federal and State requirements. However, the
remaining 36 did not. The table summarizes the deficiencies noted and the number of claims
that contained each type of deficiency. Appendix C contains a summary of deficiencies, if any,
identified for each sampled claim.

                               Summary of Deficiencies in Sampled Claims

                         Type of Deficiency                                    Number of Deficient Claims 9
      Referral or prescription requirements not met                                       16
      Federal provider requirements not met                                                16
      Services not provided or not supported                                               14
      Services not documented in child’s plan                                               1

These deficiencies occurred because: (1) school-based health providers did not comply with
guidance related to Federal requirements and (2) New Jersey did not adequately monitor
school-based health claims for compliance with Federal and State requirements.

Based on our sample results, we estimate that New Jersey was improperly reimbursed
$5,613,885 in Federal Medicaid funds during our April 6, 2005, through June 27, 2007, audit
period.



9
    The total exceeds 36 because 11 claims contained more than 1 deficiency.



                                                          5
REFERRAL OR PRESCRIPTION REQUIREMENTS NOT MET

Pursuant to 42 CFR § 440.110 (a)(b)(c), a referral or prescription from a physician or another
licensed practitioner of the healing arts is required for physical therapy; occupational therapy;
and services for individuals with speech, hearing, and language disorders provided by or under
the direction of a qualified practitioner to be eligible for Medicaid reimbursement. For nursing
services, the New Jersey Board of Nursing Statute 45:11-23 allows nurses to execute medical
regimens as prescribed by a licensed (or otherwise legally authorized) physician or dentist.

For 16 of the 100 claims in our sample, the school-based health provider could not provide
referrals or prescriptions to support the related service. Specifically, 15 speech therapy services
did not meet Federal referral and prescription requirements, and 1 nursing service did not meet
State prescription requirements.

FEDERAL PROVIDER REQUIREMENTS NOT MET

Federal regulations (42 CFR § 440.110) set forth provider credential requirements for physical,
occupational, and speech therapy services. For 16 of the 100 claims in our sample, the speech
therapy practitioner associated with the claim did not meet these regulations.

Speech Therapy Provider Requirements Not Met

Pursuant to 42 CFR § 440.110(c)(2), for a speech therapy claim to be eligible for Medicaid
reimbursement, it must be provided by or under the direction of a speech pathologist who: (1) is
certified by ASHA or (2) has completed the equivalent education requirements and work
experience necessary to be eligible for ASHA’s certificate of clinical competence or (3) has
completed the academic program and is in the process of acquiring the necessary supervised
work experience to qualify for the certificate.

In a December 28, 1993, letter, CMS asked New Jersey officials to provide assurance that speech
therapy providers would meet the qualifications detailed in 42 CFR § 440.110(c)(2). In an
August 1, 1995, letter, New Jersey assured CMS that it would bill Medicaid for only those
services provided by or under the direction of qualified speech-language practitioners.

However, for 16 of the 100 claims in our sample, the practitioner who provided the speech
therapy service was not ASHA-certified or did not have the equivalent educational requirements
and work experience necessary to be eligible for ASHA certification.

ASHA requires all applicants for certification of clinical compliance to possess a master’s or
doctoral degree granted by a regionally accredited institution of higher education and have
completed a minimum of 75 semester credit hours in a course of study addressing the knowledge
and skills pertinent to the field of speech-language pathology. Additionally, applicants must
complete a 350-hour minimum clinical practicum under the supervision of an individual who
holds a certificate of clinical competence and a 36-week, full-time fellowship.




                                                 6
None of the practitioners associated with the 16 claims in our sample met these requirements.
The practitioners who provided the services were authorized by the New Jersey Department of
Education (DOE) to serve in public schools as either a speech correctionist or a speech language
specialist. The DOE does not require specific coursework towards a master’s degree, a 350-hour
clinical practicum, or a clinical fellowship.

Finally, for the 16 sample claims in question, the school-based providers did not furnish any
documentation showing that the services provided met the “under the direction of” requirements.
Pursuant to 42 CFR § 440.110(c) and Medicaid State Operations Letter 95-12, issued on
February 9, 1995, “under the direction of a speech pathologist” means that the speech pathologist
is individually involved with the patient under his or her direction and accepts ultimate
responsibility for the actions of the personnel that he or she agrees to direct.

SERVICES NOT PROVIDED OR NOT SUPPORTED

Pursuant to section 1902(a)(27) of the Act, States claiming Federal Medicaid funding must
document services provided. This requirement is reiterated in CMS’s technical guide and the
State handbook, which both state that school-based health providers must maintain records
documenting that a related service or evaluation service was provided. The technical guide
states that relevant documentation includes the date and location of the service, the identity of the
provider, and the length of time required for the service.

In addition, pursuant to 42 CFR § 455.1(a)(2), States are required to have a method for verifying
whether services reimbursed by Medicaid were actually furnished. Further, pursuant to 42 CFR
§ 455.18, New Jersey’s Medicaid provider agreements require providers to certify that the
information on their Medicaid claims is true, accurate, and complete. 10 Providers and billing
agents also certify that they agree to keep records necessary to fully disclose the extent of
services provided, as required by section 1902(a)(27) of the Act.

For 14 of the 100 claims in our sample, school-based health providers received Medicaid
payments for services that were not provided or not supported. Specifically:

       •   For 10 claims, documentation indicated that the related service(s) billed were not
           provided. 11 Specifically:

                o For six claims, the school register indicated that the student was absent from
                  school or school was not in session on at least 1 day that the school-based health
                  provider claimed services.



10
  The regulation requires State Medicaid claim forms to include a certification by providers that the information on
the claims is true, accurate, and complete or States may print similar wording above the claimant’s endorsement on
checks payable to providers. In New Jersey, both the Provider Electronic Billing Agreement for Providers With
Billing Agents and the Medicaid Health Insurance Portability and Accountability Act Electronic Data Interchange
Agreement include such certifications.
11
     The total exceeds 10 because 1 claim had multiple deficiencies.


                                                           7
           o For four claims, documentation for the associated student did not support the
             number of services billed.

           o For one claim, two separate school-based health providers submitted claims for
             the same evaluation service.

   •   For two claims containing specialized transportation services, school-based health
       providers did not have documentation to support the number of transportation services
       billed.

   •   For two claims, school-based health providers could not provide any documentation to
       support the related service.

CHILD’S PLAN NOT PROVIDED

Section 1903(c) of the Act permits Medicaid payment for medical services provided to children
under IDEA if the services are included in a child’s plan. Pursuant to Part B of IDEA, school
districts must prepare a child’s plan for each child that specifies all special education and related
services that the child needs. New Jersey’s State Medicaid plan provides that a child’s plan must
state which related services are to be provided. For 1 of the 100 claims in our sample, the
associated school could not provide a child’s plan.

CAUSES OF THE IMPROPER CLAIMS

Although PCG incorporated corrective actions recommended in one of our prior audit reports
(A-02-03-01003) into their SEMI provider handbook, our review found deficiencies similar to
those previously reported. We found two main causes of the improper claims.

Providers Did Not Comply With Federal Requirements

Some of the improper claims occurred because school-based health providers did not comply
with Federal requirements. The State handbook specifies that per Federal requirements, speech
therapy services must be provided by or under the direction of a ASHA-certified
speech-language pathologist. In addition, the State handbook reiterates Federal requirements
related to referrals for speech therapy, which must be referred by a licensed practitioner of the
healing arts within the scope of his or her practice under State law. However, we found 24
claims for speech therapy services that did not meet these Federal requirements.

New Jersey Did Not Adequately Monitor School-Based Health Claims

Based on our review, we determined that monitoring of school-based health providers’ claims for
compliance with program requirements by New Jersey and PCG was not effective. From June
2007 through September 2007, PCG conducted 20 monitoring visits and found errors at 17
school districts. These visits identified deficiencies similar to those found in our audit. PCG
submitted its findings to New Jersey, which made the necessary adjustments to the specific
claims identified in PCG’s reviews.


                                                  8
RECOMMENDATIONS

We recommend that New Jersey:

   •   refund $5,613,885 to the Federal Government and

   •   consider the results of this review in its evaluation of our prior recommendations to
       ensure that its school-based health providers comply with Federal and State requirements.


NEW JERSEY COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In its comments on our draft report, New Jersey disagreed with our recommended refund. In
addition, New Jersey questioned our sampling methodology and disagreed with what we
accepted as valid referrals. However, New Jersey also described corrective actions that it has
taken in response to our second recommendation.

New Jersey provided additional documentation for six claims we questioned in our draft report.
After reviewing this documentation, we determined that some services for five claims complied
with Federal and State requirements and revised our findings and recommended refund
accordingly. We have summarized New Jersey’s comments, along with our response, below,
and we have included those comments in their entirety as Appendix D.

Sampling Methodology

New Jersey Comments

New Jersey questioned our sampling methodology used to determine the estimate for the
overpayment associated with unallowable claims for school-based health services and said that it
resulted in inaccurate findings and recommendations. New Jersey stated that our sample size did
not appear large enough for an accurate estimate of overpayments. New Jersey also said that our
sample should have been stratified based on the type of service and the beneficiary’s medical
condition (i.e., type of disability).

Office of Inspector General Response

We followed our longstanding statistical sampling policies with regard to both sample size and
stratification. The Departmental Appeals Board (Board) has supported the Office of Inspector
General’s (OIG) use of statistical sampling to calculate disallowances in accordance with these
policies. Specifically, in one case involving the OIG’s use of statistical sampling, the Board
stated that “Since the individual case determinations were voluminous, the auditors used




                                                9
statistical sampling techniques in lieu of examining all records to establish the amount of the
disallowance, an approach upheld in principle by courts and this Board before.” 12

Additional Documentation

New Jersey Comments

New Jersey provided additional documentation for 6 of the 53 claims (S1-4, S1-7, S1-14, S1-46,
S2-35, and S2-48) questioned in our draft report. 13

Office of Inspector General Response

We reviewed the documentation that New Jersey provided for the six claims and accepted some
services based on the documentation. Specifically, we accepted some services that we
previously questioned because of referral or documentation issues; however, we continue to
question services related to one claim (S1-7) that still did not meet documentation requirements.
Additionally, we continue to question speech therapy services that did not meet referral and
documentation requirements for a portion of another claim (S2-48). We have revised our
findings, recommended refund, and Appendix C accordingly.

Referrals

New Jersey Comments

New Jersey stated that for two sample claims (S1-5, S1-41) the individual who referred the
speech therapy services was certified by ASHA but was not licensed by the State’s licensing
body. For a third sample claim (S2-41), New Jersey stated that the referral was signed by a
non-licensed speech therapist who had taken a State exam, “proving educational equivalency
needed for ASHA certification.” New Jersey stated that, because ASHA-certified individuals
can provide speech therapy services, referrals for speech therapy services by ASHA-certified
individuals should be allowed.

Office of Inspector General Response

We disagree with New Jersey’s statement that an unlicensed individual can refer services.
Pursuant to 42 CFR § 440.110 (a)(b)(c), referral or prescription from a physician or another
licensed practitioner of the healing arts is required for physical therapy; occupational therapy;
and services for individuals with speech, hearing, and language disorders.


12
  California Department of Social Services, DAB No. 816 (1986); see also Maine Dept. of Health and Human
Services, DAB No. 2292 (2009); New York State Office of Children and Family Services, DAB No. 1984(2005);
California Department of Social Services, DAB No. 524 (1984); Ohio Department of Public Welfare, DAB No. 226
(1981); and precedents cited therein.
13
 In its comments, New Jersey stated that it also provided additional documentation for a seventh claim (S1-3).
New Jersey officials subsequently stated that they did not have any additional information to support this claim.



                                                         10
Attendance

New Jersey Comments

New Jersey stated that five sample claims (S1-6, S1-17, S2-29, S2-39, S2-40) had service
documentation to support the claims although attendance data for the corresponding student
indicated an absence. New Jersey indicated that there are multiple reasons that an error could
have occurred in documenting attendance and that “valid service documentation data” should be
accepted as proof of service delivery.

Office of Inspector General Response

Students must be in attendance on a given day to receive school-based health services on that
day. To determine if a student was in attendance on the date of a sampled service, we reviewed
the school register to determine if school was in session and the student was marked present. We
then compared the school’s attendance record to the SEMI service record. For the five sample
claims, the school register indicated that the student was absent from school. Further, for one of
the sample claims (S1-6), the service record indicated that the student received services on two
Federal holidays, when the school was closed. Therefore, we did not accept the billed SEMI
services for these claims.

Transportation

New Jersey Comments

New Jersey stated that one sample claim (S2-36) should be allowed because all students in
day training centers receive specialized transportation because of the severity and uniqueness of
their disabilities. Specifically, New Jersey stated that wheelchair lifts, nurses, and aides are
examples of essential resources used when transporting these students to and from day training
centers.

Office of Inspector General Response

The bus log that supported the transportation services for sample claim S2-36 did not identify the
individual students that were provided transportation. Rather, the log contained the number of
students present on the bus—a number that varied throughout the month. Without some way to
identify the students present (e.g., initials or names), we were unable to determine whether the
student associated with the sample claim used the specialized transportation for the dates he
received related services.




                                                11
APPENDIXES
                                                                                       Page 1 of 2


                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population was Medicaid claims for school-based services provided by school-based health
providers in New Jersey that were submitted for Federal Medicaid reimbursement by Public
Consulting Group, Inc. The claims were for service dates from September 1, 2003, through
June 5, 2007, with payment dates from April 6, 2005, through June 27, 2007 (our audit period).

SAMPLING FRAME

The sampling frame was a computer file containing 157,114 student-months representing all
claims for school-based services provided by school-based health providers in New Jersey with
payment dates from April 6, 2005, through June 27, 2007. The total Medicaid paid amount for
the 157,114 student-months was $90,731,406 ($45,365,703 Federal share). State officials
extracted the database from the paid claims’ files maintained at the Medicaid Management
Information System fiscal agent.

SAMPLE UNIT

The sample unit was an individual student-month. Each sample unit represents all services
provided to an individual student for a month during our audit period that were billed for Federal
Medicaid reimbursement by Public Consulting Group, Inc.

SAMPLE DESIGN

We used stratified random sampling to evaluate the population of Medicaid school-based claims.
To accomplish this, we separated the sampling frame into two strata:

       •   Stratum 1―less than $1,500: 130,854 student-months

       •   Stratum 2―equal to or greater than $1,500: 26,260 student-months

SAMPLE SIZE

We selected a sample of 100 student-month claims with 50 items from each stratum.

SOURCE OF THE RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services’ statistical software,
RAT-STATS, to generate the random numbers.
                                                                                    Page 2 of 2


METHOD OF SELECTING SAMPLE ITEMS

We sequentially numbered the student-months in each stratum. After generating 50 random
numbers for each stratum, we selected the corresponding frame items. We then created a list of
the 100 sample items.

ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We used the lower limit of the 90-percent
confidence interval to estimate the overpayment associated with the unallowable claims.
                   APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                               Sample Details and Results
                      Value of                   Value of                   Value of
                       Frame                      Sample                   Unallowable
Stratum Claims in     (Federal     Sample        (Federal    Unallowable     Claims
Number   Frame         Share)        Size         Share)       Claims    (Federal Share)
   1    130,854       $20,479,208     50            $7,839       21           $2,077
   2     26,260        24,886,495     50            51,402       15             5,008

 Total   157,114      $45,365,703     100         $59,241           36         $7,085



              Estimated Overpayment Associated with the Improper Claims
                  (Limits Calculated for a 90-Percent Confidence Interval)

                         Point Estimate                $8,066,382
                         Lower Limit                   $5,613,885
                         Upper Limit                  $10,518,880
                                                                                Page 1 of 3


    APPENDIX C: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED CLAIM

                                             Legend
1   Referral or prescription requirements not met
2   Federal provider requirements not met
3   Services not provided or not supported
4   Services not documented in child’s plan

Office of Inspector General Review Determinations on the 100 Sampled Claims

              Deficiency     Deficiency    Deficiency   Deficiency     No. of
Claim No.         1              2             3            4        Deficiencies
  S1-1                                                                    0
  S1-2                                                                    0
  S1-3             X                                                      1
  S1-4                                                                    0
  S1-5             X                                                      1
  S1-6                                          X                         1
  S1-7                                          X                         1
  S1-8                                                                    0
  S1-9                                                                    0
  S1-10                                                                   0
  S1-11                                                                   0
  S1-12                          X              X                         2
  S1-13                                                                   0
  S1-14                                                                   0
  S1-15                          X                                        1
  S1-16                                                                   0
  S1-17                                         X                         1
  S1-18            X             X                                        2
  S1-19            X             X                                        2
  S1-20                                                                   0
  S1-21                          X                                        1
  S1-22                                                                   0
  S1-23            X                                        X             2
  S1-24                                                                   0
  S1-25                                                                   0
  S1-26                                                                   0
  S1-27                                         X                         1
  S1-28                                                                   0
  S1-29                          X                                        1
  S1-30            X             X                                        2
  S1-31            X             X                                        2
  S1-32            X                                                      1
  S1-33                                                                   0
                                                                           Page 2 of 3


            Deficiency   Deficiency   Deficiency   Deficiency     No. of
Claim No.       1            2            3            4        Deficiencies
  S1-34                      X                                       1
  S1-35                                                              0
  S1-36                      X                                       1
  S1-37                                                              0
  S1-38                                                              0
  S1-39                                                              0
  S1-40         X                                                    1
  S1-41         X                                                    1
  S1-42                                                              0
  S1-43                                                              0
  S1-44                                                              0
  S1-45                                                              0
  S1-46                                                              0
  S1-47                      X                                       1
  S1-48                                                              0
  S1-49                                                              0
  S1-50                                                              0
  S2-1                                                               0
  S2-2                                                               0
  S2-3                                                               0
  S2-4                                                               0
  S2-5                                                               0
  S2-6                                                               0
  S2-7                                                               0
  S2-8                                                               0
  S2-9                                                               0
  S2-10                                   X                          1
  S2-11                                                              0
  S2-12                                                              0
  S2-13                                                              0
  S2-14                                                              0
  S2-15                                                              0
  S2-16         X                                                    1
  S2-17                                                              0
  S2-18                                                              0
  S2-19                                   X                          1
  S2-20                                                              0
  S2-21                                                              0
  S2-22                                                              0
  S2-23                                                              0
  S2-24                                                              0
  S2-25                                                              0
  S2-26         X            X                                       2
                                                                              Page 3 of 3


               Deficiency   Deficiency   Deficiency   Deficiency     No. of
Claim No.          1            2            3            4        Deficiencies
  S2-27                                                                  0
  S2-28                         X                                        1
  S2-29                                      X                           1
  S2-30                                                                  0
  S2-31                                                                  0
  S2-32                                                                  0
  S2-33              X          X                                        2
  S2-34                                                                  0
  S2-35                                                                  0
  S2-36                                      X                           1
  S2-37                                                                  0
  S2-38                                                                  0
  S2-39                                      X                           1
  S2-40                                      X                           1
  S2-41              X          X                                        2
  S2-42                                                                  0
  S2-43                                      X                           1
  S2-44                         X                                        1
  S2-45                                                                  0
  S2-46                                                                  0
  S2-47                                                                  0
  S2-48              X                       X                           2
  S2-49              X                       X                           2
  S2-50                                                                  0
Category             16        16           14            1             47
 Totals
36 claims in error
                                                                                                 Page 1 of8


                      APPENDIX D: NEW JERSEY COMMENTS 





                                      Ji'lai. of ;N.1o J!.ro'll
CHRIS CHRISTlE                       DuARTMENT OF H UM" N S ERVICES
   Governor                DI VISION Of MEDICAL AsSISTANCE AND H EALTH SERVICES 

                                                PO Box 71 2

KIM GUADAGNO                                                                                JF..NNlfF.R VELEZ
  Lt. G"ur""r                             TREh'TON, NJ 08625..()712                          C"",,,,is$iOflt r

                                                                                             joHN R. G UHL
                                                                                                D Irr:ClOT
                                          August 2. 2010


  James P. Edert
  Regional Inspector General for Audit Services
  Department of Health and Human Services
  Office of Inspector General
  Office of Audit Services Region II
  Jacob K. Javits Federal Building
  26 Federal Plaza - Room 3900
  New York, NY 10278

  Report Number: A-02..o7·01052

  Dear Mr. Edert:

  T his is in response to your leHer dated May 6, 2010 concerning the Department of Health and
  Human Services, Office of the Inspector General's (GIG) draft report entitled "Review of New
  Jersey's Medicaid School-Based Health Claims Submitted by Public Consulting Group, Inc."
  Your letter provides the opportunity to comment on this draft report.

  The objective of this review was to determine whether New Jersey's Medicaid schaal-based
  health claims submitted by its billing agent, Public Consulting Group, Inc. (peG), complied with
  Federal and State requirements. The review period was Aprit 6, 2005 through June 27, 2007.

  The draft audit report concluded that New Jersey's claims for reimbursement of Medicaid
  school-based health services submitted by PCG did not fully comply with Federal and State
  requirements. While 60 of the 100 school-based health claims in the sample fully complied with
  all Federal and State requirements, the remaining 40 did not meet one or more of the
  applicable requirements. The report states that the deficiencies occurred because: (1 ) school­
  based health providers did not comply with guidance related to Federal requirements; and (2)
  New Jersey did not adequately monitor school-based health claims for compliance with Federal
  and State requirements. Based upon the sample results, the auditor estimated that New Jersey
  was improperly reimbursed $6,369,708 in Federal Medicaid funds during the April 6, 2005
  through June 27, 2007 audit period.
                                                                                                         Page 2 of8



James P. Edert
August 2, 2010
Page 2


We appreciate the opportunity 10 provide this response to the draft DIG audit report. following
are the auditors' recommendations and the Division of Medical Assistance and HeaHh Services
(OMAHS) responses:

1. 	 The OIG recommends that New Jersey should refund 56,369,708 to the Federal
     Government

The State does not concur with this recommendation. Based on the analysis outlined below,
which was performed with the assistance of a statistician, we believe that the sampling
methodology used by the auditor resulted In Inaccurate findings and recommendations.

Ana/rs/s of DIG Sampling Methodology
To select a probability sample of a population in order to accurately estimate some
characteristic of the total population, it Is necessary to define the population.' This definition of a
population for a particular study is called the sampling frame . Individual elements and units
within the sampling frame are selected for a study using various kinds of sampling procedures.

The selection of random samples is the preferred method for studies in which population
characteristics are estimated based on a sample because random sampling leads to extremely
accurate estimates when the sampling procedures are appropriate for what we know (or can
assume) about the characteristics of the total population. Random samples can be selected by
simple random sampling or by stratified random sampling. Simple random sampling leads to
accurate results if we know or can assume that the population is relatively homogenous with
respect to the questions of interest. For instance, a sample of student· months representing the
rate of non..compliance of all Medicaid school· based health claims submitted for one type of
service for individuals within one type of disability category selected by simple random sampling
may be extremely accurate for estimating the overall rate of non-compliance.

If known or assumed , however. that the population is heterogeneous with respect to the
questions of interest so that the findings are likely to differ substantially within subgroups of the
population, the validity of the estimates of population characteristics is greatly improved by
stratified random sampling. Stratified random sampling ensures that the proportion of individual
units within each subgroup of the sample matches the proportion of individual units within each
subgroup of the total population and thus the combined estimates derived from subgroups
within the sample represent the characteristics of the total population accurately.

Medicaid claims for school·based services in New Jersey include a broad array of different
types of services. The services for which school--based health claims are submitted Include:

    1. 	 Rehabilitative service~ccupationa l , physical, and speech-language                      therapies;
         psychological counseling and psychotherapy; and nursing;



, McBu rney, O. H., & White, T. L (2007). 1I6eordr Mtlhods. Thomson w~dsworth,   8elmOl'lt, CA.
                                                                                                Page 3 of8




James P . Edert
August 2, 2010
Page 3


   2. 	 Evaluation services identifying the need for specifIC services and prescribing the range
        and frequency of services that the student requires which may Indude reevaluation or
        review of the current services specifted in the child's plan; and
   3. 	 Specialized transportation services In a vehicle adapted to serve the needs of the
        disabled, including specially adapted school buses, when provided on the same day as a
        related service and when transportation Is Included in the child's plan.

Each subgroup of services is quite likely to differ substantially in ways that may impact overall
estimates of noncompliant claims for the entire population of school-based health claims. In
addition to the cost of services. the proportion of claims submitted varies by type of service. The
proportion of claims submitted as well as the extent to which multiple claims are submitted for
services provided across all three major types of services differs substantially by disability
group as well with some Iower.Jncidence disability groups accounting for a relatively high
proportion of claims. Since it is likely that types of noncompliance- services not provided or
supported , services lacking a referral or prescription, services meeting Federal provider
qualification requirements, and services not documented in the child's plan- are also correlated
with the type of services provided, any estimation procedure based on a sampling frame that
does not take these factors into account in estimating the incidence of noncompliant claims
overall will not be accurate.

The sampling frame for the estimates of noncompliance reported In the draft report entitled
Review of New Jersey's Medicaid School-Based Health Claims Submitted by Public Consulting
Group, Inc. , is described as "a computer file containing 157,114 student-months representing all
claims provided by school-based health providers in New Jersey with payment dates from April
6, 2005 through June 27, 2007.· The sample unit was an Individual student-month representing
all services provided to an individual student for a month during the audit period.

Despite the heterogeneity of types of claims filed and likely correlations among types of claims
and types of claim deficiencies and disability groups, the only variable used to define the
sampling frame for the DIG study was the level of reimbursement. The population of student­
months identified for the audit was stratified in this way:

Table 1. DIG sample results and estimates

Stratum      Claims     Value of          Sample    Value of      Unallowable     Value of
Number       in Frame   Frame             Size      Sample        Claims          Unallowable
                        ( Federal                   (Federal                      Claims (Federal
                        Share)                      Share)                        Share)
1             130,854   $20,479,208       50        $7,839        24              $2,210
(<$1500l
2            26,260     $24,886,495       50         $51,402      16              $5,936
!?$1500)
Total         157.114    $45365,703       100        $59241       40              $8,146
                                                                                                   Page 4 of8




James P. Edert 

August 2, 2010 

Page 4


This sampling frame does not accurately estimate noncompliant claims because key factors
likely to be highly correlated with noncompliance estimates such as type of service­
rehabilitation, evaluation. and transportation-and disability groups are not taken into account
along with the dollar amount of the claims.

It is important to note, however, that even this analysis does nol accurately reflect the
characteristics of the defined strata as shown by the table below. The purpose of defining a
sampling frame is to take the proportionality of the subgroups in the sample and population Into
account In deriving the population estimates. As shown in Table 2, this was not done for this
analysis. T he total value of claims in Stratum 1 was 45% of the total. In the sample. however,
the value of claims for Stratum 1 was only 13% of the total value. The sample that was drawn
does not accurately reflect the relative value of claims in each stratum.

Table 2. DIG sample results and estimates with population and sample percentages


Number       in         Frame                  Size     Sample                Claims      Unallowable
           Frame       (Federal                        (Federal                             Claims
                        Share)                          Share)                             (Federal




The May 6, 2010 draft report is silent as to the justification fo r selecting a sample size of only 50
student-month claims from a slratum with a total of 130,854 student-months and a sample size
of only 50 student-month claims from a stratum with a total of 26,260 student-months for a total
of only 100 student-month claims from a total of 157,114 student-month claims. We do not
believe these samples are large enough for an accurate estimate of overpayment for
unallowable school·based Medicaid claims in New Jersey. As we discussed in our analysis of
the sampling methodology, there is a great deal of variance in types of claims fried and the
amount of those claims. When it is known that population characteristics vary greatly, it is usual
fo r researchers studying that characteristic to select fairty large samples In order to obtain valid
estimates of the population characteristic. Given the broad range of types of and amounts of
claims, it does not appear that results found for this very small sample of claims generalize
across the entire population of school-based Medicaid claims in New Jersey during the period
under investigation.

The sampling frame chosen for this investigation was simply not adequate to provide a valid
estimate of the amount of overpayment associated with unallowable claims for school-based
Medicaid services in New Jersey. The sampling frame chosen fails to account for many key
variables such as type of service and type of disability served likely to be correlated with both
the value of claims and types of deficiencies in claims. In addition, given the known variance
                                                                                               Page 5 of8




James P. Edert
August 2, 2010
Page 5


across types of claims and the amount of claims across the state, the sample sizes chosen
were too small to justify generalization of the results to the entire population of claims in the
state.

Additional Documentation Provided to the DIG
Additional documentation to support citations 1-3, 1-4, 1-7, 1-14, 1-46, 2-35 and 2-48 was
located and forwarded to the auditor.

   •     Two (2) 8T services for citation 1-3 - total FFP is $53.23
   •     Three (3) 8 T services for citation 1-4 - total FFP is $79.85
   •     One (1) Counseling service for citation 1-7 - total FFP is $51 .24
   •     One (1) Counseling service for citation 1-14 - total FFP is $26.62
   •     One (1) Counseling service for citation 1-46 - total FFP Is $26 .62
   •     Three (3) PT services for citation 2-35 - total FFP is $79.85
   •     One (1) Evaluation service and three (3) PT services for citation 2-48 - total FFP is
         $856.82

These claims represent $1 ,174.23 in FFP, which we believe are fully supported. We have been
advised by the DIG that they will review the additional documentation and include the results of
their review along with any appropriate adjustments in their final report.

Analysis of Speech Qualifications
Some of the citations, specifically 1-5 and 1-41 , are related to speech services provided by
individuals having the ASHA certification and not a NJ state license. While we agree that the
provider of the referral did not have the NJ license, they were A$HA-certified as required by
Federal Medicaid regulations. We believe that meeting the federal standard is acceptable for
the speech therapy services in question. Therefore those claims should be acceptable. For
citation 1-5 there are five (5) $T services with a total FFP of $133.08 that we believe should be
allowed ; for citation 1-41 there are four (4) $T services with a total FFP of $106.46 that we
believe should be allowed.

For citation 2-41, the referral was signed by a non-licensed speech therapist. The therapist in
question had taken the Praxis in August 2006, proving educational equivalency needed for
ASHA certification. We believe this is a valid claim with an FFP of $53.23.

We believe the Items 1-5, 1-41 and 2-41 are valid claims, with a total of $292.77 in FFP.

 Attendance
 There are several citations where documentation is in place to support the claim, but the
 auditor's review of attendance data from the school's Student Information System, indicates an
 absence. We strongly believe that the service documentation data supports the claims, and
 that there are multiple reasons an error could have occurred in documenting attendance. There
 are policy and logistical issues that make attendance data less reliable than service
 documentation data. For example, if a student is late, he may be marked absent but still
                                                                                                Page 6 of8




James P. Edert 

August 2. 2010 

Page 6


receive a service later In the school day. Similarly, if a student leaves early he could be marked
absent but still have received a service prior to departure.

We believe that items 1-6, 1-17, 2-29, 2-39 and 2-40 are valid claims, with a total of $342 .03 in
FFP

TransportatIon
In one case the auditor disallowed 13 units of transportation for a student that attended a New
Jersey Day Training Center, specifically Passaic County. The auditor cited the direct services
as valid claims but the corresponding transportation services were disallowed because the bus
log did not Identify the specific student names. As was mentioned to the auditor on numerous
occasions, all students that are placed In the Day Training Centers receive specialized
transportation due to the severity and uniqueness of their disabilities. Wheelchair lifts, nurses,
aides, etc. are all essential resources when transporting these students to and from lhe centers.
We believe that item 2-36 Is a valid claim in the amount of $563.65.

With the analysis performecl and additional documentation presented, we believe the total
unallowed FFP should be adjusted downwards. at a minimum, to $5,773.32. This is a reduction
from the $8,146 cited in the report that was used to calculate the disallowance.

2. 	 New Jersey should con sider the results of this review in its evaluation of prio r
     r ecommendations to en sure that Its sch ool-based health providers comply w ith
     Federal and State re qui rements.

Guidance to School Districts
We would like to stress that the State of New Jersey has taken a number of steps to provide
guidance to the school districts. We have several staff devoted to administering the project,
including coordination of relevant slate agency efforts and communication to school districts.
Communications include an updated provider manual, a SEMI reference website. and training
sessions. Since the time period for which this audit covers, we have taken additional steps to
inform Local Education Agencies (LEA) of their responsibilities in meeting both Federal and
State requirements.

    • 	 Training sessions are done both regionally and on a one-on-one basis with district
        administrators.
    • 	 Regional meetings are held twice a year and are well attended by districts. The vendor
        is required to cover the regulations of the SEMI program at these meetings.
    • 	 Each district submitting claims has partiCipated in an administrator training with the
        vendor, where the SEMI regulations are covered directly with district.
    • 	 We have updated our SEMI reference website and now include the SEMI Provider
        Handbook, as well as other policy documents that explicitly state how to correctly
        implement the program.
    • 	 The vendor has provided a toll free number and an online message board for districts to
        access.
                                                                                                 Page 7 of8




James P. Edert
August 2. 201 0
Page 7



Current Pre-Payment Audit Process
We have implemented an electronic 1001 for school districts to use to document health related
services and Implemented mandatory compliance checks where districts provide additional data
(IEP dates, provider qualifications, and referral data) before claims are processed. This policy
now requires aU LEAs to upload compliance data prior to claiming, so that our vendor can
match the data to claims submission. If required data is not provided , a claim is not processed.

The State has improved its monitoring of the school-based heaHh providers.            The current
vendor has Implemented stronger post claiming quality assurance procedures, which includes a
yearly on-site monitoring of a sample set of districts provided by the State. Any lapses in
compliance are explicitly stated to the district with suggestions on how to align their internal
processes to match Federal and State regutations. Claims that do not comply with Federal and
State requirements are appropriately adjusted.

District Training
Training is an imperative component of a quality program. Therefore, our vendor has
implemented a multi-Uered approach to training. Distrlcts receive concentrated training during
the start-up and implementation of the program, with follow up training provided in subsequent
years. A typical district will receive the following initial trainings:

          Start-Up Meeting -        review of program rutes and         regulations with district
          administrators

          Admin/strator Training - district administrators learn to utilize software provided by
          vendor and how to maintain compliance with program requirements

          Staff Training - other district staff learn how to appropriately utilize software by
          vendor and learn Medicaid rules

The number of training sessions can vary based on districts requests and district need. 

To supplement initial training, PCG provides follow up sessions to reinforce program 

requirements. All districts have the opportunity to attend the following trainings: 

         Regional Training - district administrators attend training held twice a year to review
         program regulations, as well as discuss any updates or changes to the program

           Online Trainings - provided on a weekly basis, available to all districts statewide.
           Topics can Include: administrator role and responsibility, other district staff training,
           and program regulations.

 In total. peG has conducted nine Regional Trainings, the most recent being April 2010. Prior to
 June 30, 2007 (the end date of the report) PCG had conducted three Regional Trainings . This
 ensures that districts that do not actively reach out to PCG have an opportunity to review
 program regulations, ask questions and receive any clarification needed.
                                                                                                 Page 8 of8




James P. Edert
August 2, 2010
PageS



All districts have the opportunity to attend the online trainings provided by the vendor. These
trainings cover aspects of Medicaid daiming. including program start-up, the role and
responsibilities of the d istrict coordinator, and specific topic-based trainings aimed at program
compliance. In total. the vendor has provided 363 online trainings that are open to all districts.
Training schedules are sent out monthly, and provide both conference call and web login
infonnation. Trainings aimed at program regulations and the district's responsibility to maintain
compliance with the regulations account for 235 Qut of the 363 online trainings. The vendor
continues to hold online sessions every week.

In addition to direct training. the vendor provides helpdesk support for district administrators and
staff regarding program regulations. Each district is assigned a client representative from the
vendor . This facilitates a working relationship between the district and the vendor and ensures
district staff members have a resource available to answer any questions.

Overall, the State has taken previous results and enhanced its training , resources, pre-payment
audit processes and post-payment processes to ensure compliance with Federal and State
requirements by all participating LEAs and health providers.

If you have any questions or require additional information, please contact me or Richard Hurd
at (609) 588-2550. We would like to thank the OIG audit team for their professionalism
througho ut our review of their findings and recommendations. In addition, we also appreciate
their courtesy in providing to us the documentation that they were able to obtain from the school
districts

                                          Sincerely,


                                         ~!u~,tJill/~
                                           Director

JRG:H
c: 	  Jennifer Velez 

      Richard Hurd 

